   June 4, 2002




Acquisition

Contract Administration Services
Function at Edwards Air Force Base
(D-2002-097)




              Department of Defense
          Office of the Inspector General

Quality              Integrity        Accountability
       Additional Copies

       To obtain additional copies of this report, visit the Website of the Inspector
       General of the Department of Defense at www.dodig.osd.mil/audit/reports or
       contact the Secondary Reports Distribution Unit of the Audit Followup and
       Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax
       (703) 604-8932.

       Suggestions for Future Audits

       To suggest ideas for or to request future audits, contact the Audit Followup and
       Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
       fax (703) 604-8932. Ideas and requests can also be mailed to:

                         OAIG-AUD (ATTN: AFTS Audit Suggestions)
                         Inspector General of the Department of Defense
                               400 Army Navy Drive (Room 801)
                                   Arlington, VA 22202-4704
       Defense Hotline

       To report fraud, waste, or abuse, contact the Defense Hotline by calling
       (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
       by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
       The identity of each writer and caller is fully protected.




Acronyms

AFB                Air Force Base
AFMC               Air Force Materiel Command
CAS                Contract Administration Services
DCMA               Defense Contract Management Agency
DMRD               Defense Management Report Decision
         Office of the Inspector General of the Department of Defense
Report No. D-2002-097                                                     June 4, 2002
 (Project No. D2002CK-0008)

                  Contract Administration Services Function
                         at Edwards Air Force Base

                                 Executive Summary

Who Should Read This Report and Why? DoD civilian and military personnel who
administer and/or provide oversight of the contract administration services function at
the Air Force Flight Test Center, Edwards Air Force Base, California (the Flight Test
Center) and the Defense Contract Management Agency. This report provides
management the results of the review to determine whether the contract administration
services function at the Air Force Flight Test Center, Edwards Air Force Base should
be transferred to the Defense Contract Management Agency.

Background. The audit was performed in response to allegations made to the Defense
Hotline regarding the Flight Test Center. The allegations were that the Flight Test
Center is not in compliance with Defense Management Report Decision 916, which
directed that all military contract administration service organizations be put under the
Defense Contract Management Agency; the transfer of the contract administration
services function to the Defense Contract Management Agency would ensure the
availability of experienced staff; and the transfer of the contract administration services
function to the Defense Contract Management Agency from the Flight Test Center
would save the Air Force an estimated $1.5 million per year.

Results. Air Force retention of the contract administration services at the Flight Test
Center was appropriate and the allegations were not substantiated. The Air Force
decision to retain the contract administration function at the Flight Test Center is not in
violation of Defense Management Report Decision 916. The Flight Test Center only
administers that portion of contracts that pertain to developmental flight test activities
and only for the duration of the developmental test. The Defense Contract Management
Agency performs only acceptance testing and has no experience in supporting
developmental flight-testing. The Defense Contract Management Agency officials
acknowledged that they cannot ensure the availability of experienced staff. In addition,
officials at the Flight Test Center stated that the transfer of the function would increase
potential safety and program cost risk if there are delays or impacts to flight test
schedules. The alleged costs avoidance were an unsubstantiated estimate that 25 Flight
Test Center employees would be transferred to the Defense Contract Management
Agency at an average annual personnel cost of $60,000. If these functions were
transferred from the Flight Test Center, the costs to perform the function would
transfer from the Air Force to the Defense Contract Management Agency and DoD
would realize no cost reduction for the contract administration services function.
Therefore, there is no valid reason to transfer the contract administration services
function from the Flight Test Center to the Defense Contract Management Agency.

Management Comments. We provided a draft of this report on April 30, 2002.
Because this report contains no recommendations, no written response to this report
was required, and none was received. Therefore, we are publishing this report in final
form.




                                           ii
Table of Contents

Executive Summary                                                      i

Background                                                             1

Objective                                                              2

Results
     Allegations Involving Contract Administration Services Function   3

Appendixes
     A. Scope and Methodology
         Scope                                                         5
         Methodology                                                   5
         Prior Coverage                                                5
     B. Report Distribution                                            6
Background
    The audit was performed in response to allegations made to the Defense Hotline
    regarding the Air Force Flight Test Center, Edwards Air Force Base (AFB),
    CA (the Flight Test Center). The allegations were that:

       •   the Flight Test Center is not in compliance with Defense Management
           Report Decision (DMRD) 916, which directed all military contract
           administration service organizations to be put under the Defense Contract
           Management Agency (DCMA);

       •   the transfer of the contract administration services (CAS) function to
           DCMA will ensure the availability of experienced staff support; and

       •   the transfer of CAS function to DCMA from the Flight Test Center
           would save the Air Force an estimated $1.5 million per year.

    Air Force Flight Test Center, Edwards Air Force Base, CA. The Flight Test
    Center is the Air Force Materiel Command (AFMC) center of excellence for
    research, development, and test and audit of aerospace systems for the United
    States and its allies. The Flight Test Center Contract Management Division
    performs CAS on various contracts applicable to developmental flight testing.
    Secondary delegations are used by DCMA to transfer responsibility for certain
    CAS functions to offsite locations, such as Edwards AFB. The Contract
    Management Division also performs property administration functions on some
    contracts issued by the Flight Test Center. As of November 6, 2001, the Flight
    Test Center had 12 quality assurance personnel, 6 property management
    personnel, 2 contract administration personnel, and 1 safety liaison person.

    Defense Management Report Decision 916. This decision, “Streamlining
    Contract Management,” approved by the Deputy Secretary of Defense in
    November 1989, consolidated CAS under the, Defense Contract Management
    Command within the Defense Logistics Agency, except CAS performed at the
    Army ammunition plants and by the Navy Supervisor of Shipbuilding,
    Conversion, and Repair. The DMRD states, in part, that all DoD CAS
    functions, including those CAS functions, currently performed by the Defense
    Logistics Agency and the Military departments, will be consolidated.

    In March 2000, Defense Contract Management Command became the DCMA,
    an autonomous agency. DCMA provides pre-contractual advice services during
    the acquisition phase to help construct effective solicitations, identify potential
    performance risks, select capable contractors, and write contracts that are easily
    administered, thereby reducing the risk of costly modifications. After the
    contract is awarded, DCMA oversees contractor systems and operations to
    ensure that the product, cost, and schedule is in compliance with the terms and
    conditions of the contract. This includes on-site surveillance and
    program-specific concerns that cannot be monitored by offsite buying agencies.




                                         1
    Prior Studies. Since 1995 two studies were performed to determine whether
    the administrative duties performed by the Flight Test Center should be
    transferred to the DCMA. In 1995, the Defense Logistics Agency and AFMC
    jointly conducted a study and recommended that the functions at the Flight Test
    Center be considered for transfer to the DCMA. The recommendation was not
    accepted at the October 1995 AFMC Visions VI Executive Conference because
    the current support was responsive, and any benefits from a transfer would be
    minimal. Further, if DCMA performed the CAS functions, it would be
    administered from a location other than Edwards AFB, and response time could
    be unacceptable. In 1999, the Flight Test Center performed a study. The study
    found no compelling reasons or convincing evidence to support a decision one
    way or another and recommended that the Flight Test Center weigh the transfer
    of the function in terms of cost, control, and customer services to determine if
    action should be taken to transfer the function. The decision was made not to
    transfer the function to DCMA, but stated that the issue should be addressed at a
    future date.

Objective
    The overall objective was to determine the validity of the allegations made to the
    Defense Hotline. Specifically, we determined whether the contract
    administration services function at the Flight Test Center should be transferred
    to the Defense Contract Management Agency. See Appendix A for a discussion
    of the audit scope and methodology, and a list of prior coverage related to the
    audit objective.




                                        2
           Allegations Involving Contract
           Administration Services Function
           The allegations were not substantiated. The Air Force decision to retain
           the contract administration function at the Flight Test Center is not in
           violation of DMRD 916. The Flight Test Center only administers that
           portion of the contract applicable to developmental flight test activities
           and only for the duration of the developmental test. DCMA performs
           only acceptance testing and has no experience in supporting
           developmental flight testing. DCMA officials acknowledged that they
           cannot ensure the availability of experienced staff. In addition, officials
           at the Flight Test Center stated that transfer of the function would
           increase potential safety and program cost risk if there are delays or
           impacts to flight test schedules. The alleged costs avoidance were an
           unsubstantiated estimate that 25 Flight Test Center employees would be
           transferred to the DCMA at an average annual personnel cost of
           $60,000. If these functions were transferred from the Flight Test
           Center, the costs to perform the function would transfer from the Air
           Force to the DCMA, and DoD would realize no cost reduction for the
           CAS function. Therefore, there is no valid reason to transfer the CAS
           function from the Flight Test Center to DCMA.


Compliance with Defense Management Report Decision 916
    Allegation. The Flight Test Center is not in compliance with DMRD 916,
    which directed all military CAS organizations be put under the DCMA.

    Audit Results. The allegation was not substantiated. The Flight Test Center
    performs its functions through secondary delegations of administrative duties
    from DCMA. The Flight Test Center only administers that portion of contracts
    that pertain to flight test activities at Edwards AFB for the duration of the
    contract flight test stage. An official at DCMA-West stated he is not aware of
    any regulation or directive being violated by the Flight Test Center.

    Since 1995, two studies have been performed to determine whether the CAS
    functions should be transferred to DCMA. During 1995, the Defense Logistics
    Agency and AFMC jointly conducted a study to determine if CAS functions at
    AFMC Test Centers should be transferred to DCMA. The recommendation to
    transfer CAS functions to DCMA was not accepted at the AFMC Visions VI
    Executive Conference in October 1995, because the current support was
    responsive, and any benefits were considered minimal. In 1999, the Flight Test
    Center performed a study. The study found no compelling reasons or
    convincing evidence to support a decision one way or another and recommended
    that the Flight Test Center weigh the transfer of the function in terms of cost,
    control, and customer service to determine if action should be taken to transfer
    the function. The Flight Test Center Commander decided not to transfer CAS
    functions to DCMA, but stated that the issue should be addressed at a future
    date.


                                        3
Availability of Experienced Staff Support
     Allegation. Transfer of the CAS functions to DCMA will ensure availability of
     experienced staff.

     Audit Results. The allegation was not substantiated. The Director of
     Contracting, Flight Test Center stated that DCMA had no experience in the
     oversight of developmental flight tests on an installation that has a substantial
     number and variety of air vehicles. Developmental flight test support on an
     installation is not a core competency for DCMA. The flight test environment
     requires several specialty skills including flight safety, environmental control,
     software engineering, and flight operations. The skills are not readily available
     within DCMA. DCMA officials acknowledged that they cannot ensure the
     availability of experienced staff. DCMA generally performs only functional
     test/check flight acceptance testing and establishes the aircraft profile.

     The Director of Contracting, Flight Test Center stated that if the CAS functions
     were transferred to DCMA, their local offices would be too far away from the
     base to be responsive in a developmental flight test environment. Additionally,
     there is an increased potential safety and program cost risk if there are delays or
     impacts to flight test schedules. Flight test environments require “real time”
     support, which is currently set at the 30-minute response time. Response time is
     crucial because it could affect performance and safety issues. In addition, the
     Flight Test Center had concerns that it will lose policy control over the
     Government Flight Representatives responsibilities. Finally, DCMA stated the
     Edwards Air Force Base Commander is best equipped to determine what
     processes to take in determining the safety, quality analysis, and property
     requirements.

Estimated Costs Avoidance Per Year
     Allegation. Transfer of the CAS function to DCMA would save the Air Force
     an estimated $1.5 million per year because DCMA would not charge the Air
     Force for the services.

     Audit Results. The allegation was not substantiated. The $1.5 million alleged
     costs avoidance were an estimate based on assuming that 25 Flight Test Center
     employees would be transferred to the DCMA at an average annual employee
     cost of $60,000. Any potential costs avoidance were offset by the increased
     potential safety and program cost risk if there were delays or impacts to flight
     test schedules. Delays in flight test schedules can be measured in increased
     mission impact, increased operational costs, and potential loss of life in combat
     situations. Because DCMA is not a fee for service organization, the costs to
     perform the CAS function would transfer from the Flight Test Center to
     DCMA, and DoD would realize no cost reduction for the CAS function.




                                          4
Appendix A. Scope and Methodology
Scope
     Work Performed. We reviewed background information, previous studies, and
     DoD directives and interviewed DCMA and Air Force personnel. We visited
     DCMA, Alexandria, VA; Edwards AFB, CA; and DCMA-West, Los Angeles,
     CA; to obtain information and documentation relative to the allegations made to
     the Defense Hotline regarding performance of the CAS function at the Air Force
     Flight Test Center.

     Limitations to Scope. The scope of the audit was limited to reviewing
     background information, previous studies, and DoD directives and interviewing
     DCMA and Air Force personnel. Due to the specific nature of the allegations,
     we did not review the management control program at any of the DoD
     organizations visited.

     General Accounting Office High-Risk Area. The General Accounting Office
     has identified several high-risk areas in the DoD. This report provides coverage
     of the Contract Management high-risk area.

Methodology
     Use of Computer-Processed Data. We did not use computer-processed data in
     the performance of the audit.

     Use of Technical Assistance. We did not use technical assistance in the
     performance of the audit.

     Audit Dates and Standards. We performed this audit from October 2001
     through March 2002 in accordance with generally accepted government auditing
     standards.
     Contacts During the Audit. We visited or contacted individuals and
     organizations within DoD. Further details are available upon request.

Prior Coverage
     During the last 5 years, the Inspector General of the Department of Defense has
     issued one audit report relative to this subject audit. The Inspector General of
     the Department of Defense report can be accessed from the internet at
     http://www.dodig.osd.mil/audit/reports.

Inspector General of the Department of Defense (IG DoD)
     IG DoD Report No. PO 98-604, “Consolidation of DoD Contract
     Administration Services,” January 15, 1998



                                         5
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Commander, Air Force Flight Test Center, Edwards Air Force Base

Other Defense Organizations
Director, Defense Contract Management Agency
   Director, Defense Contract Management Agency-West

Congressional Committees and Subcommittees, Chairman,
  and Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Committee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          6
Team Members
The Contract Management Directorate, Office of the Assistant Inspector General for
Auditing of the Department of Defense prepared this report. Personnel of the Office of
the Inspector General of the Department of Defense who contributed to the report are
listed below.

Garold E. Stephenson
Robert K. West
Joseph P. Doyle
Michael J. Tully
Peter I. Lee
George B. West, Jr.
Michael J. Miller
Miwon Kim
